                          Office of Inspector General
                          Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floo r
Washingto n, DC 20007-3558
202.295. 1660 (p) 202.337.6616 (f)
www.oig.lsc.gov




                                                        MEMORANDUM

           To:                  Lora Rath, Acting Director
                                Office of Compliance and Enforcement

           From:                Jeffrey E. SChanz O t f
                                Inspector General
                                                              sw-=
                                                           C::"<5-
                                                                 .


           Date:                July 20,2012

           Subject:             Examination of Expenditures Incurred for the Performance of TIG Grants
                                Awarded to Legal Services of Southern Missouri


           The attached is our audit report on expenditures of $124,383 reported by Legal
           Services of Southern Missouri (LSSM) for the performance of TIG grant 07281. The
           OIG concluded that $3 ,659 of expenditures did not have adequate documentation as
           required by TIG grant assurances.

           TIG grant assurances reference LSC regulations and guidelines that describe
           documentation requirements for supporting costs. The accurate determination of TIG
           project costs is important since TIG grant assurances also require that funds provided in
           excess of project costs be returned to LSC or reprogrammed to other projects with the
           approval of LSC.

           LSSM's written response to the OIG results stated, among other things, that
           contemporaneous time records were kept and that the actual project cost exceeded the
           amount charged to TIG grant 07281. The OIG reviewed the additional supporting
           documentation provided with LSSM's written response but continues to consider the
           cost to be questioned .




                                                             1
The report includes a questioned cost referral to the Office of Compliance and
Enforcement. Please contact Ronald Merryman at (202) 295-1663 or via e-mail at
RM@oig .lsc.gov if you have any questions.


Attachment

cc:    James Sandman, President
       Janet LaBella, Director, Office of Program Performance
       Douglas Kays, LSSM Executive Director




                                                  2
       Examination of Expenditures Incurred for the Performance
     of TIG Grants awarded to Legal Services of Southern Missouri
                                    RNO: 526051
                                 Report No. AU 12-05


The Legal Services Corporation (LSC) Office of Inspector General (OIG) conducted an
examination of expenditures incurred for the performance of the Technology Initiative
Grant (TIG grant) awarded to the Legal Services of Southern Missouri (LSSM). The
objectives of the examination were to determine whether the TIG grant expenditures for
TIG grant 07281 were allowable and whether the stated purpose of the TIG grant was
achieved .    The examination's background and its scope and methodology are
discussed in Appendix I.

                                       RESULTS

The OIG concluded that the stated purpose of TIG grant 07281 appeared to have been
met. However, the OIG also concluded that $3,659 of personnel expenditures were not
supported by adequate documentation and are thereby considered questioned costs.
OIG conclusions are based on a review of applicable LSSM books, records , internal
controls, TIG grant assurances and requirements, applicable regulations and guidance ,
and OMB Circular A-122, Cost Principles for Nonprofit Organizations.

The following chart lists the expenditures for TIG grant 07281 , by budget category, as
reported to the OIG by LSSM on July 6, 2011 . The chart also includes the amounts
questioned by the OIG for each budget category.




                                            3
                                         TIG Expenditures        Questioned
        Line-Item                             (Claim)              Costs
        Personnel                                   $9 ,998             $3,659
        Space Cost (renUlease)                      $9,049
        Equipment (Purchase)                       $50,323
        Telecommunications
        Bandwidth Charqes                           $55 ,013
                  Total All                        $124,383              $3,659



Labor distribution records maintained by LSSM on TIG grant 07281 only supported
$6,339 of the $9,998 reported by LSSM to the OIG as personnel expenditures for TIG
grant 07281. According to the LSSM Director of Administration, the amount reported to
the OIG as personnel costs was based on the amount included in the approved budget
for TIG grant 07281 and not on labor distribution records because LSSM received all of
the funds for this grant based on achievement of milestones.

During our aud it, LSSM provided labor distribution records that showed the amount of
time charged to tasks related to TIG grant 07281 for the individual who worked on the
project. Our analysis of these records revealed that only $6,339 of labor costs were
actually supported by time charges. Consequently, the OIG questions $3,339 (the
difference between $9,998 in personnel costs reported and the $6,339 of personnel
costs supported by labor distribution records) as unsupported costs and, pursuant to 45
CFR Part 1630, is referring these costs to LSC management for review and action.

TIG grant assurances for the LSSM TIG grants require that LSC rules, regulations ,
guidelines and directives are followed. Pursuant to LSC regulations, 45 C.F.R 1630.3
(d), Salary and Wages charged directly to Corporation grants and contracts must be
supported by personnel activity reports. Guidance provided in the Accounting Guide for
LSC Recipients indicates that labor hours distributed to projects, contracts, and grants
are based on time distribution records that identify the total time actually spent by all
individuals who charge time directly to projects, contracts, and grants. Lastly, OMB
Circular A-122 , Cost Principles for Nonprofit Organizations, which is referenced in the
LSC regulations , states that the distribution of salaries and wages to awards must be
supported by personnel activity reports.


                               GRANTEE COMMENTS

The OIG provided LSSM a written draft of its review results on May 30 , 2012. LSSM's
written response is included in Appendix II and summarized below.

LSSM provided comments on the questioned cost finding of unsupported personnel
costs of the IT Director. LSSM indicated that the IT Director did contemporaneously


                                           4
keep time but did not enter his time under a separate funding code for this TIG grant.
LSSM further indicated that the IT Director kept notes outlining his activities on the grant
and LSSM provided a calculation of the IT Director's time spent on the TIG grant
supported by an attached excel spreadsheet with the notes.


                    OIG EVALUATION OF GRANTEE COMMENTS

Regarding the LSSM calculation of the IT Director's time spent on the project based on
an analysis of notes kept by the IT Director, the OIG has reviewed the analysis and
continues to consider the costs to be questioned for the following reasons:

   •   LSC regulation 45 CFR 1630.3 [Standards governing al/owability of costs under
       Corporation grants or contracts] indicates, among other things, that expenditures
       under the recipient's grant or contract are allowable only if the recipient can
       demonstrate that the cost was adequately and contemporaneously documented.

   •   The questioned personnel costs of $3,659 were not supported by adequate and
       contemporaneous documentation . The IT Director's notes provided by LSSM as
       support for the questioned costs, while contemporaneous, did not clearly identify
       that the described activities were related to the TIG grant and therefore they were
       not considered to be adequate documentation. Alternatively, the IT Director's
       notes provided for $6,339 in personnel costs did clearly describe actions related
       to the TIG grant and the costs were considered to be adequately and
       contemporaneously documented and therefore allowable charges to the TIG
       grant.

   •   LSSM's analysis during the time of the audit of the IT Director's notes was not
       contemporaneous and was not performed by the person who made the notes
       (the IT Director is no longer employed by LSSM). Consequently, the OIG did not
       consider this analysis (as it related to the IT Director's notes that did not clearly
       describe TIG activities) to be adequate and contemporaneous documentation.



                       CONCLUSION AND RECOMMENDATION

TIG grantees are required to return funds provided in excess of project costs or seek
approval for reprogramming the funds. Without TIG grantees maintaining the required
records on actual program costs, they cannot comply with the requirement. During the
audit, LSSM has reported that it has now modified its activity report to track employees'
direct time on grants. For TIG grant 07281 , the OIG could not verify that personnel
costs in the amount of $3,659 were actually expended on the TIG grant, and therefore
considers them questioned costs.

This report contains no recommendations requiring LSC management response . LSC
current regulations state the requirement to maintain adequate records of expenditures

                                             5
of LSC funds. For fiscal years 2010 and 2011 , LSC has instructed TIG recipients to
submit final actual expenditures on the project and to consult LSC's Accounting Guide
for LSC Recipients, 2010 Edition , for guidance on financial accounting and reporting
standards. Through this report, the OIG is referring $3,659 of questioned costs to the
Office of Compliance and Enforcement for review in accordance with 45 C.F.R.
§ 1630.7.




                                          6
                                                                        APPENDIX I

                                   BACKGROUND

During an audit of LSC Headquarters' management of the TIG program, the OIG noted
that although LSC required TIG recipients to provide periodic reports about the grants,
LSC did not normally maintain information on the actual expenditures incurred in
performing the TIG grants. As a result, the OIG planned audits of individual TIG grants
to examine expenditures incurred in performing the grants.

The OIG requested specific financial information from recipients on all terminated TIG
grants, regardless of termination date, as well as all TIG grants that were completed
during the period January 1, 2009 through March 31, 2011 . All TIG recipients reported
grant expenditures by budget line item. LSSM reported expenditures for one terminated
and one closed TIG grants: 01088 and 07281 , respectively. However, the supporting
documentation for TlG grant 01088 was disposed of in accordance with LSSM's record
retention policy, and therefore was not available for review. We only reviewed TIG
grant 07281 . The total expenditures for TIG grant 07281 were $124,383 .

TIG grant 07281 was awarded in the amount of $124,383 to convert LSSM's network
and computing environment to a completely terminal server based environment for its
six offices.




                                           1
                           SCOPE AND METHODOLOGY

The audit was conducted in accordance with Government Auditing Standards for an
examination-level attestation engagement. As such the audit examined evidence
supporting the grantee's compliance with grant provisions related to expenditures,
obtained an understanding of internal controls that were material to the grantee's
compliance with the terms and conditions of the grant, and performed other procedures
necessary to evaluate the grants. The review was limited in scope and not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations or compliance with LSC regulations .

To accomplish the objectives of the examination the following steps were performed:

   •   The appropriateness of expenditures and the existence of adequate supporting
       documentation were reviewed for TIG grant 07281 . Since there were few
       expenditures for this TIG grant, we reviewed 100 percent of the expenditures. To
       assess the appropriateness of grantee expenditures, we reviewed invoices,
       contracts, and employee time records.         The appropriateness of grantee
       expenditures was evaluated on the basis of the grant agreements, applicable
       laws and regulations , and LSC policy guidance .

   •   Internal controls over personnel and contracting expenses were reviewed and
       tested , which included a review of relevant grantee policies and procedures.
       Grantee officials were interviewed to obtain an understanding of the internal
       control framework, and grantee management and staff were interviewed as to
       their knowledge and understanding of the processes in place.

   •   To determine whether the stated purpose of the TIG grant was achieved, we held
       discussions with grantee staff and received demonstrations on grant outcomes.




                                           2
                                                                                                                                  APPENDIX II

                                                                                                          Legal Services of Southern Missouri

                           LSSM
                           PROVlDlNG QUALITY LEGALAlD
                                                                                                                                               Springfield Office
                                                                                                                                           809 North Campbell
                                                                                                                                   Springfield, MO 65802-3820


                                                                                                                                                   T   417.881.1397
                                                                                                                                                   T   800.444.4863
                                                                                                                                                   F   417.881.2159
                                                                                                                                                   F   877.686.9367

                                                                                                                                                    WYftN Ispsm PU

                                                                         June 6, 2012

 Richard Adkins, Audit Team Leader
 Office of Inspector General
 Legal Services Corporation
 3333 K Street, NW, 300 Floor
 Washington, DC 2007-3558

 Dear Mr. Adkins:

Pursuant to your letter dated May 30, 2012, concerning your office findings on TIG 07281 - LSSM
would like to submit the following comments. Our comments are concerning your question cost
findings of unsupported costs of $3,659 in personnel cost expenditures.

LSSM set up and charged the IT Director's salary to the grant as follows: $9,998/12 months or $833
per month. However, the IT Director did keep contemporaneously time on this grant in our
computerized timekeeping program. The IT Director did not enter his time under a separate funding
code for this grant. He entered all of his time under our overall Legal Services Corporation funding
code. Also, he provided notes outlining his activities on the grant.

LSSM records show that the TIG was approved on September 27,2007. The IT Director entered time
on TIG grant activities from September 28, 2007 until November 26, 2008. (See attached excel sheet
printout from the Prime timekeeping software) Our records indicate that the IT Director spent 365
hours on this project at a total cost of $11,767. Our records show that the IT Director time is
documented at $1,769 higher than the budget for this project.

           If you need any further information, please let us know.

Sincerely,




Douglas B. Kays
Executive Director


L'l:~LSC   Legal SetV1ceS" of Southern Missouri Is proud to be a Legal Services Corporation (LSC) grantee. We may not expend any funds for any activities prohibited
I'          by the LSC Act. The LSC Act and regulations m;,y be viewed at www.lsc.gov.
